<html>
<title> - ENTERPRISE-WIDE STRATEGIES FOR MANAGING INFORMATION RESOURCES AND TECHNOLOGY: LEARNING FROM STATE AND LOCAL GOVERNMENTS</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
   ENTERPRISE-WIDE STRATEGIES FOR MANAGING INFORMATION RESOURCES AND 
         TECHNOLOGY: LEARNING FROM STATE AND LOCAL GOVERNMENTS

=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON TECHNOLOGY AND PROCUREMENT POLICY

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 3, 2001

                               __________

                            Serial No. 107-4

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
75-152 PDF                  WASHINGTON : 2001
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   ------ ------
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

           Subcommittee on Technology and Procurement Policy

                  THOMAS M. DAVIS, Virginia, Chairman
JO ANN DAVIS, Virginia               JIM TURNER, Texas
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
DOUG OSE, California                 PATSY T. MINK, Hawaii
EDWARD L. SCHROCK, Virginia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                    Melissa Wojciak, Staff Director
              Victoria Proctor, Professional Staff Member
                          James DeChene, Clerk
                    Trey Henderson, Minority Counsel





                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 3, 2001....................................     1
Statement of:
    Evans, Donald, chief information officer, Public Technology, 
      Inc., accompanied by Bobby Arnold..........................    96
    Gerhards, Charles F., Deputy Secretary for Information 
      Technology, Governor's Office of Administration, 
      Commonwealth of Pennsylvania...............................    55
    McClure, Dave, Director, Information Technology Management 
      Issues, U.S. General Accounting Office.....................    12
    Molchany, David J., chief information officer, Fairfax 
      County, VA.................................................    63
    Upson, Donald W., Secretary of Technology, Commonwealth of 
      Virginia...................................................    46
    Valicenti, Aldona K., president, National Association of 
      State Information Resource Executives [NASIRE], and chief 
      information officer, Governor's Office for Technology, 
      Commonwealth of Kentucky...................................    32
Letters, statements, etc., submitted for the record by:
    Davis, Hon. Thomas M., a Representative in Congress from the 
      State of Virginia, prepared statement of...................     5
    Evans, Donald, chief information officer, Public Technology, 
      Inc., accompanied by Bobby Arnold, prepared statement of...    98
    Gerhards, Charles F., Deputy Secretary for Information 
      Technology, Governor's Office of Administration, 
      Commonwealth of Pennsylvania, prepared statement of........    57
    McClure, Dave, Director, Information Technology Management 
      Issues, U.S. General Accounting Office, prepared statement 
      of.........................................................    15
    Molchany, David J., chief information officer, Fairfax 
      County, VA, prepared statement of..........................    65
    Turner, Hon. Jim, a Representative in Congress from the State 
      of Texas, prepared statement of............................    10
    Upson, Donald W., Secretary of Technology, Commonwealth of 
      Virginia, prepared statement of............................    48
    Valicenti, Aldona K., president, National Association of 
      State Information Resource Executives [NASIRE], and chief 
      information officer, Governor's Office for Technology, 
      Commonwealth of Kentucky, prepared statement of............    34


   ENTERPRISE-WIDE STRATEGIES FOR MANAGING INFORMATION RESOURCES AND 
         TECHNOLOGY: LEARNING FROM STATE AND LOCAL GOVERNMENTS

                              ----------                              


                         TUESDAY, APRIL 3, 2001

                  House of Representatives,
 Subcommittee on Technology and Procurement Policy,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
room 2154, Rayburn House Office Building, Hon. Thomas M. Davis 
III (chairman of the subcommittee) presiding.
    Present: Representatives Thomas Davis of Virginia, Turner, 
Horn, and Jo Ann Davis of Virginia.
    Staff present: Melissa Wojciak, staff director; Victoria 
Proctor, professional staff member; James DeChene, clerk; Trey 
Henderson, minority counsel; and Jean Gosa, minority assistant 
clerk.
    Mr. Davis of Virginia. Good morning. Welcome to the 
Subcommittee on Technology and Procurement Policy's legislative 
hearing exploring the strategies that State and local 
governments have considered and implemented to centralize the 
management of their information resources.
    Before I continue, I ask unanimous consent that all Members 
and witnesses' written opening statements be included in the 
record. Without objection, so ordered.
    I also ask unanimous consent that all articles, exhibits, 
and extraneous or tabular material referred to be included in 
the record. Without objection, so ordered.
    Last year, the then Subcommittee on Government Management, 
Information, and Technology chaired by Mr. Horn held a hearing 
that looked at the merits of establishing a Federal CIO after 
both I and my colleague, Mr. Turner, each introduced separate 
legislation to accomplish that goal.
    That discussion, chaired by our colleague, Mr. Horn, 
examined the current state of information resources management 
in the Federal Government including the use of information 
technology management principles.
    There is no question that information is now driving our 
economy, our workplace, our classrooms, and our culture. The 
quintessential symbol of the information age, the Internet, has 
profoundly impacted just about every corner of the globe, and, 
although computer technology has been around for decades, the 
interconnectivity of our information systems and our 
communications networks has grown exponentially since the early 
1990's.
    Clearly, this maturing medium that is the Internet is 
redefining the relationship between citizens, between 
businesses, between consumers and businesses, and, not the 
least of which, between governments and citizens and 
government.
    There is a new expectation in the way that businesses 
operate. It is now almost unimaginable that an enterprise can 
succeed without establishing an Internet presence and, in many 
cases, an electronic method of generating revenue.
    Unlike government, we have seen the private sector lead the 
way in seizing the benefits of electronic commerce, new 
technologies, and, most importantly, the management of these 
tools to achieve profitable outcomes. In fact, when you talk to 
citizens today, they think of the private sector, they think of 
being able to go to an ATM and sticking in a card and getting 
out cash, or going and buying gasoline by sticking a card in 
and not even getting a receipt. But when you think of 
government what do you think of? You think of chads. You think 
of the old technologies and the old way of doing things.
    Today we are examining the question of how you bring the 
Federal Government truly into the information age as a result 
of the benefits that information technology has rendered and 
Government's ability to manage its information resources.
    Just 2 weeks ago, the Gartner Group estimated that through 
2020 IT will bring a transformation to government and governing 
more radically than any changes since the administration of 
President Franklin D. Roosevelt.
    Fortunately, State and local governments are working hard 
to meet the challenges of transforming their governance 
approach from a paper-based, stovepipe strategy to an 
integrated, enterprise-wide management system designed to 
efficiently improve public service delivery to citizens. But 
those challenges are varied and many. They involve bringing 
together strong executive leadership and all vested interests 
to modernize financial, labor, information technology, and 
capital management systems. While the information technology is 
one component, it is ubiquitous, and therefore critical to 
government's ability to achieve efficiencies and deliver 
services, especially its ability to meet the expectations of 
electronic government.
    That same Gartner Group report also predicted that through 
2004 more than 50 percent of e-government projects worldwide 
will fail to deliver the service levels its citizens and 
businesses require. Further, it is estimated that by 2005 OECD 
governments will provide new means for citizens to participate 
in activities such as rule and regulation-making, the 
development of legislation, and judicial action that would 
affect their own governance.
    Many of these complex issues have been or are being tackled 
by State and local governments, and this is our focus during 
the next few hours.
    In releasing its February 2001, States Management Report 
Card, the Government Performance Project noted that over the 2-
year period since it issued its first report card, that a 
surprising momentum has taken place. Those States that have 
achieved little in the way of management modernization in 1999 
were now committed to technological innovation. The project 
found that States were generally moving in the right direction 
with management systems improvement, and that States that 
manage well perform well.
    Most States have created chief information officers or 
their functional equivalent, and that position is oftentimes a 
Cabinet-level post responsible for overseeing and coordinating 
all information technology and IRM in the State. Some States--
like California, Colorado, Massachusetts, New Mexico--have one 
officer or commission assigned responsibility for carrying out 
these functions, while others may rely on two or more divisions 
to perform those duties. Similarly, there are counties and 
cities across the Nation that have centralized IRM and/or 
information technology practices in a chief information 
officer.
    It is my concern--and I would like to take the liberty of 
saying that it is also Mr. Turner's concern--that the Federal 
Government is failing to effectively manage its information 
resources, particularly with regard to the use of technology. 
For government to manage and perform better, it must integrate 
information resource management as an integral and valuable 
component to the success of its mission. Good governance is 
impossible if those resources are simply seen as a support 
function that can be isolated in their implementation and 
oversight.
    It is for these reasons that Mr. Turner and I have each 
shown support of creation of a Federal CIO as a separate entity 
within the Executive Office of the President. Mr. Turner's bill 
would have created an Office of Information Technology and the 
CIO would have acted as a special assistant to the President. 
That office would have been responsible for providing analysis, 
leadership, and advice to the President and Federal departments 
and agencies on Government's use of information technology.
    My legislation, the Federal Information Policy Act of 2000, 
would have consolidated and centralized all IRM powers 
currently held by OMB in a new Office of Information Policy and 
also created an Office of Information Security and Technical 
Protection reporting to the CIO.
    But today our hearing is an attempt to gather information 
from our witnesses about what types of management strategies 
are being utilized, what factors were considered by each entity 
in establishing a chief information officer or similar office, 
how do they address the enterprise-wide issues that have 
traditionally been dealt with agency-by-agency, and what are 
the challenges they face. In addition, we'll identify the 
primary differences between a State and local approach and a 
Federal approach to more-centralized IT management and what 
lessons learned at the State and local levels may be applied at 
the Federal level.
    The subcommittee will hear testimony from Dave McClure, the 
Director of Information Technology Management Issues for the 
General Accounting Office; Aldona Valicenti, NASIRE's executive 
president, as well as Kentucky's CIO; my good friend, Don 
Upson, the Secretary of Technology for the Commonwealth of 
Virginia;
Charles Gerhards, the Deputy Secretary of Technology for the 
State of Pennsylvania; David Molchany, the CIO of my home 
county, Fairfax; and Don Evans, the CIO for Public Technology, 
Inc. and former CIO of Montgomery County, MD.
    [The prepared statement of Hon. Thomas M. Davis follows:]
    [GRAPHIC] [TIFF OMITTED] T5152.001
    
    [GRAPHIC] [TIFF OMITTED] T5152.002
    
    [GRAPHIC] [TIFF OMITTED] T5152.003
    
    Mr. Davis of Virginia. I would now yield to Congressman 
Turner for his opening statement.
    Mr. Turner. Thank you, Mr. Chairman. It's good to see all 
of our witnesses here today. I know we all respect what the 
States are doing in the area of information technology. You've 
made much progress. We always like to say the States are the 
incubator of ideas, and I think in IT that has clearly been the 
case.
    We all know that information technology is revolutionizing 
both the private and the public sector's means of providing 
services to the general public. E-government is making it 
possible for citizens to access their government in a way they 
have never been able to do before, in many cases without 
leaving their homes. And the success of digital applications 
has rendered the old forms of government and management 
obsolete.
    We now know that the effective and innovative use of IT 
requires a level of leadership and focus that goes beyond what 
many of us thought IT to be in the early days when we were 
worried about what type of computer system to purchase for our 
various respective governments.
    In order to meet the management challenge, both the public 
and the private sector have created positions called ``chief 
information officers,'' or the functional equivalent of that. 
This position has enabled there to be a central authority which 
is usually charged with coordinating, funding, and managing all 
digital information policies. Currently, individual Federal 
agencies have CIOs, but the Federal Government, as a whole, 
does not.
    During the last Congress, the Subcommittee on Government 
Management, Information, and Technology, chaired by Chairman 
Horn--Steve Horn of California, who is also on this committee 
and here today--revealed that, while the role of the CIOs in 
the Federal Government has greatly expanded due to the year 
2000 computer problem, computer security attacks, and other 
reasons, the success of the agency CIOs has been uneven, at 
best.
    Moreover, because of a lack of central authority and 
funding, there is little agency coordination in establishing 
cross-cutting digital government applications. It appears that 
the Federal Government's IT policy is like a ship without a 
rudder, moving all over the place with no direction from the 
top.
    In an effort to address these challenges, last session 
Chairman Davis and I both introduced separate bills that would 
have created a Federal CIO. Time ran out before we could move 
forward, but I know that we both share a commitment to that 
idea and we hope to pursue it.
    Despite the Federal Government's failure to institute a 
Government-wide CIO, many States and localities have done so 
and have been leaders in the area. While the Congress continues 
to debate the need for a Federal CIO--where it would be located 
in the Federal Government, how it would be funded, what degree 
of authority it should have--I believe we can learn a lot about 
the CIO position and model IT practices by listening to our 
State and local governments share their experiences.
    We are very fortunate that you have taken the time to meet 
with us today. We appreciate your being here. And I want to 
commend the chairman on his leadership and his foresight in 
pursuing this very important issue for the Federal Government.
    Thank you, Mr. Chairman.
    Mr. Davis of Virginia. Mr. Turner, thank you very much.
    [The prepared statement of Hon. Jim Turner follows:]
    [GRAPHIC] [TIFF OMITTED] T5152.004
    
    [GRAPHIC] [TIFF OMITTED] T5152.005
    
    Mr. Davis of Virginia. Any opening statements? Mrs. Davis. 
Mr. Horn.
    Mr. Horn. I'd just say to the chairman that this is an 
excellent group of witnesses. I've gone through most of them, 
and we will get a lot of knowledge from the States, and this 
time the States are ahead of the Federal Government and we need 
to catch up.
    Mr. Davis of Virginia. Thank you very much.
    I now call our panel of witnesses to testify: Dave McClure, 
Aldona Valicenti, Don Upson, Charles Gerhards, Dave Molchany, 
and Don Evans.
    As you know, it is the policy of this committee that all 
witnesses be sworn before you testify. Would you please rise 
and raise your right hands.
    [Witnesses sworn.]
    Mr. Davis of Virginia. Thank you very much. You may be 
seated.
    To afford sufficient time for questions, please try to 
limit yourselves to no more than 5 minutes for the statement. 
We'll have a--there's kind of a colored box down there. When it 
turns orange, you have a minute left, and when it turns red 
your 5 minutes are up, and just try to move to summary.
    This has been read and pruned by Members and staff, so we 
kind of know what we want to ask you, but we want you to accent 
what you want to accent in your 5 minutes.
    Mr. McClure, we'll start with you and move straight on down 
the line. Thank you for being with us.

  STATEMENT OF DAVE MCCLURE, DIRECTOR, INFORMATION TECHNOLOGY 
       MANAGEMENT ISSUES, U.S. GENERAL ACCOUNTING OFFICE

    Mr. McClure. Thanks, Mr. Chairman. It is a pleasure to be 
here. Good morning to you and members of the subcommittee. I am 
pleased to be here to discuss the role of the Federal chief 
information officer and to also share some of the things we 
have learned about State and local government and their 
implementation of best practices in CIO organizations.
    As you mentioned in your opening statement, information 
technology is, indeed, embedded and the electronic government 
approach is being taken at all levels of government. We have at 
present over 1,400 e-government initiatives underway in the 
Federal Government of varying size and type. Unfortunately, as 
this subcommittee is well aware, the track record in the 
Federal arena is mixed. While we do see success, we also see 
too many instances where investments in technology produce 
questionable results and not clear improvements in agency 
performance. This is the reason we have been producing our 
high-risk series--to let the Congress know those specific 
projects that warrant congressional oversight and certainly 
attention on the part of the agencies. Also, we have been 
putting out a performance and accountability series that was 
just reissued that in January--where we outline seven IT 
management challenges which are critical, we believe, for the 
Federal Government's IT performance to improve. They cover such 
things as information security management, better use of 
information, dissemination and collection technologies, 
pursuing investment and capital planning practices, and 
developing IT human capital within the agencies.
    For these kinds of challenges to be effectively addressed, 
we have consistently endorsed the idea of a Federal CIO. The 
Federal IT management framework would be strengthened by having 
a Federal CIO because increasingly the problems such as those 
that I just mentioned are multi-dimensional in nature and they 
cut across numerous departments and agencies. These problems 
are blurred by our traditional government lines.
    We think that these Government-wide issues really need a 
catalyst to provide substantive leadership, full-time 
attention, consistent direction, priority setting for a growing 
arena of issues, and ensuring that IT is being used in the 
Federal Government to produce the most consistent results and 
addressing the Government's highest priorities and making sure 
that these decisions are not made in isolation of those 
priorities.
    There is no consensus, Mr. Chairman, on the need for a 
Federal CIO. I think we've mentioned in the past, even the 
Federal CIOs, themselves, have been surveyed about this, and 
the responses were mixed. What we do see is a growing support 
for this idea since last fall. Several studies have come out 
since that time proposing a Federal CIO, including the Council 
for Excellence in Government, the President's Information 
Technology Advisory Committee, the Gartner Group, and others, 
which indicate there is growing support for the need for a 
Federal CIO position.
    However, without a clear understanding of the roles, the 
responsibility, and the authority that we expect this 
individual to have, it is difficult to really truly gauge the 
support or opposition to a Federal CIO, and it is on those 
issues of authority, role, and responsibility that we should 
focus our attention.
    Today you have several people here from State and local 
government that are going to provide excellent examples of how 
State CIO models and local government CIO models have been put 
in place. There is no golden bullet or silver bullet. Each CIO 
has been placed into the context of the organization mission, 
and for that reason CIOs really have to function within 
different contexts, depending upon the service or the mission 
that the organization is delivering.
    Let me leave you with six prominent fundamental principles 
that must be in place for a CIO to be used effectively. It is 
based upon a report that we issued in February called 
``Maximizing the Success of Chief Information Officers'' that 
is based upon our case study research of prominent private 
sector and several State CIO organizations. These don't 
represent the full array nor the best and the brightest among 
CIOs in the private and public sector world, but the study 
offers some excellent examples of things that they are actually 
doing. They all are transferrable to the Federal CIO issue. Let 
me quickly mention these six things.
    The first is that the role of IT in creating value must be 
embraced by other executives. CIOs don't do solo acts. They 
must have the support of top-level executives and they must be 
partners in applying technology to achieve fundamental 
improvements in operations and mission delivery. Federal CIOs 
can really help in this regard by playing a prominent role in 
setting the agenda and expectations for IT in the Federal 
Government.
    Second, the CIO must be positioned for success. The roles, 
the responsibility, the accountability for a CIO must be 
established, and they must be given executive-level authority. 
Almost half of the State CIOs report to Governors, and that is 
a very important and growing trend that we are seeing at the 
State and local level. We would expect the Federal CIO to also 
have a high reporting relationship to a high official.
    Third, CIO organizations must be credible. They must 
deliver results, and this is an important distinction that we 
would expect the Federal CIO to be tagged with--accountability 
for producing better results and moving the governmentwide IT 
agenda forward.
    Fourth, CIOs must measure success and demonstrate results. 
They have to show the effectiveness of IT with compelling data. 
And this is something, again, we would expect the Federal CIO 
to pay attention to. In the performance and accountability 
framework that we have established in the Federal Government, 
we want to see investments in the Federal arena producing 
actual performance improvements in mission delivery.
    Fifth, IT must focus on meeting business needs, not just 
satisfying IT needs, closely aligning itself with the central 
purpose of the organization.
    And, last, we've seen all successful CIOs devote attention 
to IT human capital. In high-performance organizations we find 
developed strategies to assess IT skills, recruit, train, and 
retain workers in this very competitive environment. We would 
see a Federal CIO playing a very prominent role, working with 
OMB and OPM in addressing the IT work force management 
challenges in the Federal Government.
    These six critical factors--and I think some of the lessons 
that we will learn from our discussions with the CIOs this 
morning--should be the center of discussion about a Federal CIO 
position.
    With that, I'll stop. Thank you for your time this morning, 
Mr. Chairman. I look forward to answering questions and 
entering into a dialog.
    [The prepared statement of Mr. McClure follows:]
    [GRAPHIC] [TIFF OMITTED] T5152.006
    
    [GRAPHIC] [TIFF OMITTED] T5152.007
    
    [GRAPHIC] [TIFF OMITTED] T5152.008
    
    [GRAPHIC] [TIFF OMITTED] T5152.009
    
    [GRAPHIC] [TIFF OMITTED] T5152.010
    
    [GRAPHIC] [TIFF OMITTED] T5152.011
    
    [GRAPHIC] [TIFF OMITTED] T5152.012
    
    [GRAPHIC] [TIFF OMITTED] T5152.013
    
    [GRAPHIC] [TIFF OMITTED] T5152.014
    
    [GRAPHIC] [TIFF OMITTED] T5152.015
    
    [GRAPHIC] [TIFF OMITTED] T5152.016
    
    [GRAPHIC] [TIFF OMITTED] T5152.017
    
    [GRAPHIC] [TIFF OMITTED] T5152.018
    
    [GRAPHIC] [TIFF OMITTED] T5152.019
    
    [GRAPHIC] [TIFF OMITTED] T5152.020
    
    [GRAPHIC] [TIFF OMITTED] T5152.021
    
    [GRAPHIC] [TIFF OMITTED] T5152.022
    
    Mr. Davis of Virginia. Ms. Valicenti, go ahead. Thank you 
very much for being with us.

     STATEMENT OF ALDONA K. VALICENTI, PRESIDENT, NATIONAL 
ASSOCIATION OF STATE INFORMATION RESOURCE EXECUTIVES [NASIRE], 
     AND CHIEF INFORMATION OFFICER, GOVERNOR'S OFFICE FOR 
              TECHNOLOGY, COMMONWEALTH OF KENTUCKY

    Ms. Valicenti. Good morning, Mr. Chairman and committee. It 
is a real pleasure to be here to speak on behalf of some of the 
issues that have been addressed in the Commonwealth of 
Kentucky, and also some of the issues that we are addressing 
now from NASIRE, the national organization of the States.
    I'll tell you a very brief story. I was specifically 
recruited into the Commonwealth of Kentucky to establish a 
cabinet-level CIO position--no ``but's,'' ``and's,'' or 
anything else. That was the mission.
    I had never worked in State government before. I had never 
worked in government before. The primary objective was to 
really establish that position, as we have already heard this 
morning, at a very high level, to give it the visibility, to 
give it the ability to operate at a very high level to achieve 
the business goals of the Commonwealth.
    And Governor Patton did that for a couple of reasons. He 
did that because he had started a major re-engineering effort 
to re-engineer processes across State government. It became 
clear that many of those processes needed to be enabled with 
new systems, new information systems, and a new way of doing 
business. The only way to achieve that was to put someone in 
place who had the ability to look across the enterprise, not 
from an individual cabinet or agency perspective, but to look 
at what was good for the Commonwealth, and that was the main 
reason to create a cabinet-level position--someone who would 
sit at the table, who would have the objective of the 
enterprise in mind, and then put a structure in place of 
support from a systems perspective.
    What we did is, over that period of time--and I have been 
there 3 years now--we actually have identified, I think, some 
critical learnings, and I would like to share them with you 
because they will echo what you have already heard.
    First of all, executive leadership and commitment is 
absolutely necessary, not only the commitment to establish the 
position, but also to allow it to present the leadership that 
is necessary to put the systems in place that will serve the 
citizens long-term.
    The will to invest in information technology, not only from 
an effectiveness perspective, but also from an efficiency 
perspective. Most States today, as you have already seen by the 
headlines, are probably going to have some issues with revenue 
generation. It is no different than a private sector business. 
We have to look at efficiencies on how to drive that across the 
State.
    The focus on applications--that's where the true value is, 
not just on the purchase of the hardware and the 
infrastructure, but on applications that deliver true services 
to the State.
    The willingness and the will to explore multiple 
organizational models--I will tell you, Mr. Chairman and the 
committee, having lived through multiple centralization/
decentralization efforts in the private sector, neither one of 
them works for a very long time--they tend to swing the 
pendulum back and forth--but to look for organizational models 
that can sustain the investment and the focus to business 
objectives.
    And probably the last one and maybe the most important one, 
to provide true metrics on what is delivered from an 
information system perspective, to measure what we do, and that 
is why it is so important, some of the issues that are coming 
forward in terms how the States are rated--extremely important 
to the effort.
    Let me now focus on NASIRE and what the States are doing. I 
am its current president. And what you see up on the wall there 
is the graphic, which I think is very, very clear that most of 
the States are investing in creating a CIO position either 
reporting directly to the Governor or reporting through some 
other department or a board. In fact, there's only one State up 
there which is sort of under construction or under development, 
and that is Hawaii.
    From the conversations that we have at the CIO round table, 
it is very clear that all the CIOs are committed to deliver on 
the Governor's objectives, and to do that in such a way that 
long-term the investment dollars really makes sense. That has 
been driven by the Internet today more than anything else, 
because what governments are doing--and State governments are 
doing very specifically--is taking a very citizen-centric view 
on how to deliver customer service. That will continue. The 
Internet has basically driven that as an objective for us. 
Consequently, we need to take a very citizen-centric view. The 
only way to do that is to make someone in charge of the systems 
that support that.
    Thank you.
    Mr. Davis of Virginia. Thank you very much.
    [The prepared statement of Ms. Valicenti follows:]
    [GRAPHIC] [TIFF OMITTED] T5152.023
    
    [GRAPHIC] [TIFF OMITTED] T5152.024
    
    [GRAPHIC] [TIFF OMITTED] T5152.025
    
    [GRAPHIC] [TIFF OMITTED] T5152.026
    
    [GRAPHIC] [TIFF OMITTED] T5152.027
    
    [GRAPHIC] [TIFF OMITTED] T5152.028
    
    [GRAPHIC] [TIFF OMITTED] T5152.029
    
    [GRAPHIC] [TIFF OMITTED] T5152.030
    
    [GRAPHIC] [TIFF OMITTED] T5152.031
    
    [GRAPHIC] [TIFF OMITTED] T5152.032
    
    [GRAPHIC] [TIFF OMITTED] T5152.033
    
    [GRAPHIC] [TIFF OMITTED] T5152.034
    
    Mr. Davis of Virginia. Secretary Upson, thanks for being 
here.
    Mr. Upson. Thank you, Mr. Chairman.
    Mr. Davis of Virginia. Mr. Upson is a former staffer on the 
full committee here before he went into private sector and then 
into State government, so welcome back.

    STATEMENT OF DONALD W. UPSON, SECRETARY OF TECHNOLOGY, 
                    COMMONWEALTH OF VIRGINIA

    Mr. Upson. Thank you, Mr. Chairman. It is a special 
privilege to be before this committee, and also before you. As 
you know, I'm a great fan of the work you've done on this 
committee, and you know exactly what technology can mean to 
government from your background.
    Congresswoman Davis, we missed you on the Science and 
Technology Committee this year in Richmond, but we're awfully 
glad you are on this subcommittee and in the Congress, as well. 
It is a pleasure to be here.
    I'd like to explore the issue a bit, Mr. Chairman, why are 
States putting in place cabinet-level CIOs, and I would suggest 
that it's not just about government services or on line or any 
of those things; that it's really I think governments today 
feel a sense of competition, to a degree unprecedented in 
history, one with another, and somehow believe--correctly, I 
think--that technology is critically linked to the economic 
viability of their communities, their citizens, and certainly 
their States.
    I would like to quote Cisco president, John Chambers, who 
says, ``The future does not belong to the big over the small, 
but the fast over the slow.''
    And I would also suggest that whether a CIO gets 
established at the Federal level is a question of time and not 
whether it occurs. again, I would commend that fast over the 
slow analogy.
    But why did we create one in Virginia and what did we do 
that's different? As you said, Mr. Chairman, I worked on this 
committee on three or four laws that attempted to elevate 
technology in government, and none of them worked that well, 
and it's because it was very difficult for people like you, or 
cabinet secretaries, or certainly the President just didn't 
seem to care much about how fast the computers were or how 
broad the bands were. They were concerned about what those 
things were connected to.
    So what we attempted in Virginia was to build a law that 
focused as much on management as it did on technology. What do 
we do with the computers and the networks? What do they connect 
to, and what are we trying to accomplish?
    We first tried to define ``electronic government,'' and we 
recognized very quickly that it wasn't just about what the 
State did, but it was, more importantly, about what counties 
and local government did. And so we built an office that I'm 
privileged to hold, Governor Gilmore put in place and has 
supported throughout its tenure. My office has direct 
management control over procurement and everything else, 
approval over major systems at the State level, but also comes 
with a statutory council of technology executives from every 
major department, all three branches of our State government, 
but critically three key representatives from local government. 
I'm very pleased that my colleague, David Molchany, is here 
because he sits on that council. We meet, by statute, monthly 
and we explore issues together and we learn things. In fact, I 
would emphasize that--that we're all learning. We haven't--none 
of us had computers on our desks 20 years ago, and less than 10 
years ago there was no electronic government.
    But we talk about citizen access begins at the local level, 
and that's where transactions need to occur and that's where 
the empowerment needs to occur, in our vision, in terms of the 
State. We have a statutory structure in place that feeds to 
that.
    States, we do a mix of systemic things. We do some citizen 
services and we have systemic relationships with education, 
transportation, but really we're sort of passing down the 
implementation of that to a more local level.
    Now, the Federal Government, I would suggest, works on two 
levels--a little bit of citizen interaction, but not much. It 
is really interdepartmental process where agencies and 
departments will tend to protect their turf, and 
intergovernmental processes, which together we spend $94 
billion on technology to somehow manage those processes.
    Unless there is a senior executive that can bring together 
senior executives in other departments, you're never going to 
get through and break through the bureaucracy and the processes 
that need to break through to create a competitive economy and 
to empower our citizens. That's why we think it is critical to 
have a State executive in our government, and at the questions 
we can go into a host of things that I think we've tried--that 
we've accomplished.
    But I'd like to just leave you with that thought. It's 
about interdepartmental and intergovernmental relationships, 
and as you build a statute you might want to think about that 
council of executives not just from the Federal level, but 
maybe include one or two from State government and local 
government, and perhaps private sector interests, perhaps, 
where it is appropriate. But recognize that electronic 
government, if it is really going to be successful, has to 
cross all levels of government.
    Virginia is participating with--actually, leading a pilot 
project with the Federal Government on something called 
``government without boundaries,'' and we have interest at the 
Federal level now to port its applications to the most local 
environment, our community.
    That would conclude my remarks.
    Mr. Davis of Virginia. Thank you.
    [The prepared statement of Mr. Upson follows:]
    [GRAPHIC] [TIFF OMITTED] T5152.035
    
    [GRAPHIC] [TIFF OMITTED] T5152.036
    
    [GRAPHIC] [TIFF OMITTED] T5152.037
    
    [GRAPHIC] [TIFF OMITTED] T5152.038
    
    [GRAPHIC] [TIFF OMITTED] T5152.039
    
    [GRAPHIC] [TIFF OMITTED] T5152.040
    
    [GRAPHIC] [TIFF OMITTED] T5152.041
    
    Mr. Davis of Virginia. Mr. Gerhards, thank you.

    STATEMENT OF CHARLES F. GERHARDS, DEPUTY SECRETARY FOR 
 INFORMATION TECHNOLOGY, GOVERNOR'S OFFICE OF ADMINISTRATION, 
                  COMMONWEALTH OF PENNSYLVANIA

    Mr. Gerhards. Chairman Davis and distinguished members of 
the subcommittee, I am the chief information officer for the 
Commonwealth of Pennsylvania. Thank you for the opportunity to 
share some of our experience managing enterprise-wide 
technology projects in Pennsylvania.
    Let me begin by explaining that the management of 
technology initiatives in Pennsylvania has changed dramatically 
during the past 6 years. Before Governor Tom Ridge took office 
in 1995, few State agencies worked together to coordinate 
technology projects. Many of our technology investments were 
duplicated across organizations, and, unfortunately, 
opportunities to leverage the Commonwealth's considerable 
buying power many times went unrealized.
    That all changed in 1995. Governor Ridge has made 
technology a centerpiece of his administration. He appointed 
the Commonwealth's first chief information officer in 1995. He 
also established the Office for Information Technology, which 
is managed by the CIO.
    As CIO, I report to the Secretary of Administration. The 
Secretary reports directly to Governor Ridge, and is also a 
member of the Governor's senior staff.
    During the past 6 years, under Governor Ridge's leadership, 
Pennsylvania has gained a national reputation as an emerging 
high-tech leader. We have dramatically changed people's 
perceptions of Pennsylvania, which formerly had been viewed as 
a lumbering rust-belt State, and we've also accomplished major 
technology deployments within State government that simply were 
not possible during previous administrations.
    Our success springs in great part from the Governor's 
vision to establish a centralized Office for Information 
Technology led by a CIO with the authority and empowerment to 
effectively lead enterprise-wide technology initiatives.
    Let me give you a few real-world examples. Pennsylvania has 
been the first State to consolidate and out-source all of our 
agency data centers on an enterprise scale. Previously, we had 
16 separate data centers that existed, all within a few miles 
radius of the State capital. Today those data centers have been 
consolidated and are being operated by a private sector vendor.
    Another example is a project known as ``Commonwealth 
Connect.'' The Governor recognized that our agencies were using 
multiple e-mail systems and desktop software, from word 
processing to spreadsheets. This resulted in significant loss 
of employee productivity. So at the Governor's direction we now 
are moving all of our 40,000 personal computers--and it is 
growing--to one single e-mail system and a single suite of 
desktop software, and we've done a number of studies that will 
show that this standardization will save millions of dollars 
annually.
    Finally, let me mention our nationally recognized Justice 
Network. When Governor Ridge came to office, our criminal 
justice agencies could not easily share electronic files on 
criminals and criminal suspects. Today, our new Justice Network 
provides a secure system for criminal justice professionals to 
share data files, and by taking this enterprise approach this 
system has helped to identify major felons, including murderers 
and rapists. In fact, the FBI recently used our system in order 
to identify some felons, some bank robbers.
    Having worked in State government for more than 30 years, I 
can tell you that efforts had been made under previous 
administrations to accomplish enterprise initiatives, and, 
frankly, very few of those succeeded. And the big question is 
why? And the major reason is that we lacked a central 
organization that had authority and empowerment to properly 
manage many of these strategic and enterprise-wide projects. 
The organizational changes that Governor Ridge introduced have 
made a significant difference.
    Over a period of 6 years we've had opportunities to refine 
our approach in managing these enterprise technology 
initiatives. I'd like to briefly share some of the lessons 
learned, and perhaps the foremost of those lessons is the 
first--our firsthand experience in seeing the value of strong 
executive leadership, and I believe many of the panelists have 
stressed that. Without the leadership, you don't have the 
empowerment, and without the empowerment there is little chance 
that you're going to have an enterprise approach to government.
    We've seen great advantages and benefits of rewarding and 
recognizing those State agencies that seize opportunities to 
work together. Likewise, we recognize that occasionally we need 
to introduce disincentives for those agencies that don't care 
to work or they want to work independently.
    I believe our success in Pennsylvania demonstrates the 
importance of having a CIO in place to seize the many 
opportunities to make government at all levels operate more 
effectively.
    That concludes my statement. Again, I appreciate the 
opportunity to be here and share some of our experience, and I 
would be happy to answer questions at the appropriate time.
    Mr. Davis of Virginia. Thank you.
    [The prepared statement of Mr. Gerhards follows:]
    [GRAPHIC] [TIFF OMITTED] T5152.042
    
    [GRAPHIC] [TIFF OMITTED] T5152.043
    
    [GRAPHIC] [TIFF OMITTED] T5152.044
    
    [GRAPHIC] [TIFF OMITTED] T5152.045
    
    [GRAPHIC] [TIFF OMITTED] T5152.046
    
    [GRAPHIC] [TIFF OMITTED] T5152.047
    
    Mr. Davis of Virginia. David, thank you for being with us.

  STATEMENT OF DAVID J. MOLCHANY, CHIEF INFORMATION OFFICER, 
                       FAIRFAX COUNTY, VA

    Mr. Molchany. Thank you. Good morning, Chairman Davis and 
members of the subcommittee. Thank you for this opportunity to 
speak this morning and represent local government.
    In fiscal year 1994, Fairfax County's Board of Supervisors 
created a private sector Information Technology Advisory Group 
[ITAG], to work with county staff to study the use and 
management of information technology in the Fairfax County 
government. The ITAG recommendations created the Department of 
Information Technology [DIT], from five separate IT-related 
departments; created the chief information officer to oversee 
DIT and technology county-wide and made the CIO responsible for 
IT planning county-wide and the expenditure of major IT project 
funds; made the chief information officer a direct report of 
the county executive, our CEO; ensured that IT is treated as an 
investment, with consistent funding; created a funding 
mechanism to train IT workers and ensure skills were refreshed; 
and created an annual IT plan written to highlight IT 
directions, projects, and budgets.
    ITAG also recognized that larger county departments would 
still need to retain some IT staff. DIT would serve as a 
consultant, mentor, or project partner for these departments. 
Department IT standards, planning, and budgeting would follow 
the direction of the CIO.
    The role of the CIO has broadened since it was created. In 
addition to county-wide IT responsibilities, the CIO is now 
directly responsible for nearly 1,200 information-related 
employees in DIT, in the Fairfax County Library, cable 
television, consumer protection, and document services.
    To assist the CIO, two groups have been created, which 
serve as his boards of directors. The Senior IT Steering 
Committee is an internal group which provides the CIO 
connection to departmental IT viewpoints. The IT Policy 
Advisory Committee [ITPAC], includes 15 private sector members 
appointed by the Board of Supervisors and provides the CIO an 
external, unbiased viewpoint.
    As part of annual budgeting, the county has a formal 
process for agencies to submit projects to be funded as part of 
the overall county IT investment plan, which is administered by 
the CIO. The county has a formal project manager certification 
program, which ensures both business and technology project 
managers are properly trained to manage our IT investments 
consistently county-wide.
    The elements that created a successful CIO position in 
Fairfax County include: the CIO reports directly to the county 
executive, our CEO, which empowers the position; input is 
obtained from the CIO's private sector and internal boards of 
directors, which is key; planning and review of technology 
investment is done county-wide. There's a focus on standards, 
cooperation, collaboration, and integration, and formal project 
management principles have been adopted county-wide.
    Challenges in creating the CIO position included the 
merging of five separate IT departments, gaining buy-in for a 
CIO responsible for county IT across all departments. The 
solution was team-building, collaboration, cooperation, and 
outreach by the CIO, himself.
    The Fairfax County e-government program has brought DIT and 
county departments a new way to reach our customers, and it has 
brought DIT and the departments closer together. Our e-
government program has benefited from the county-wide viewpoint 
of the CIO. We work together to present a single county image 
and message, as directed by the board of supervisors and 
ensured by the CIO.
    E-government in Fairfax means providing 24-hour citizen-
centered government. The county's award-winning e-government 
program offers multi-channel service delivery through the use 
of interactive voice response, 24 multimedia kiosks, the county 
Website, our libraries, and cable TV. We provide payments and 
other interactive services, as well as access to information 
through our multiple e-government technologies.
    Although the first focus of e-government in Fairfax is the 
citizens or businesses, we also employ technology to create an 
efficient and effective internal government.
    Some of our internal investments have included: new e-mail 
technology, an internal Intranet for employee access to county 
services, customer relationship management software, and 
systems investments for many of our departments.
    Our IT investments also include cooperative ventures. We 
have done cooperative projects with the Commonwealth of 
Virginia, and also participate in the GSA's government without 
boundaries project, which has a goal of seamless access across 
all levels of government to information and services via the 
Web.
    In conclusion, the CIO model in Fairfax can be adapted to a 
Federal model. The Fairfax CIO's role is to work across the 
enterprise. The CIO provides vision, goals, and a rallying 
point for achieving goals. The CIO is also a marketer and a 
motivator who shows what benefits are possible through IT.
    The Federal CIO will need to be at the right level in the 
Government to be empowered and to empower agency CIOs. The 
Federal CIO will also have a board of directors, the Federal 
CIO Council. The Federal CIO and the CIO Council will need to 
create a process for oversight of enterprise-wide IT. The 
Federal CIO will need to reach out beyond the Federal 
Government to hear the needs of constituents, businesses, 
States, and local governments. And I echo Don Upson's call for 
a council that includes local, State, and Federal Government to 
advise the CIO.
    Creating a strong CIO that can empower and foster 
collaboration between all levels of government can create a 
government without boundaries and IT programs and e-government 
that makes sense to everyone.
    Mr. Davis of Virginia. Thank you very much.
    [The prepared statement of Mr. Molchany follows:]
    [GRAPHIC] [TIFF OMITTED] T5152.048
    
    [GRAPHIC] [TIFF OMITTED] T5152.049
    
    [GRAPHIC] [TIFF OMITTED] T5152.050
    
    [GRAPHIC] [TIFF OMITTED] T5152.051
    
    [GRAPHIC] [TIFF OMITTED] T5152.052
    
    [GRAPHIC] [TIFF OMITTED] T5152.053
    
    [GRAPHIC] [TIFF OMITTED] T5152.054
    
    [GRAPHIC] [TIFF OMITTED] T5152.055
    
    [GRAPHIC] [TIFF OMITTED] T5152.056
    
    [GRAPHIC] [TIFF OMITTED] T5152.057
    
    [GRAPHIC] [TIFF OMITTED] T5152.058
    
    [GRAPHIC] [TIFF OMITTED] T5152.059
    
    [GRAPHIC] [TIFF OMITTED] T5152.060
    
    [GRAPHIC] [TIFF OMITTED] T5152.061
    
    [GRAPHIC] [TIFF OMITTED] T5152.062
    
    [GRAPHIC] [TIFF OMITTED] T5152.063
    
    [GRAPHIC] [TIFF OMITTED] T5152.064
    
    [GRAPHIC] [TIFF OMITTED] T5152.065
    
    [GRAPHIC] [TIFF OMITTED] T5152.066
    
    [GRAPHIC] [TIFF OMITTED] T5152.067
    
    [GRAPHIC] [TIFF OMITTED] T5152.068
    
    [GRAPHIC] [TIFF OMITTED] T5152.069
    
    [GRAPHIC] [TIFF OMITTED] T5152.070
    
    [GRAPHIC] [TIFF OMITTED] T5152.071
    
    [GRAPHIC] [TIFF OMITTED] T5152.072
    
    [GRAPHIC] [TIFF OMITTED] T5152.073
    
    [GRAPHIC] [TIFF OMITTED] T5152.074
    
    [GRAPHIC] [TIFF OMITTED] T5152.075
    
    [GRAPHIC] [TIFF OMITTED] T5152.076
    
    [GRAPHIC] [TIFF OMITTED] T5152.077
    
    [GRAPHIC] [TIFF OMITTED] T5152.078
    
    Mr. Davis of Virginia. Mr. Evans, last but not least.

 STATEMENT OF DONALD EVANS, CHIEF INFORMATION OFFICER, PUBLIC 
         TECHNOLOGY, INC., ACCOMPANIED BY BOBBY ARNOLD

    Mr. Evans. Good morning. Thank you, Mr. Chairman and 
members of the subcommittee. I am Donald Evans, and I am here 
with my colleague, Bobby Arnold, who manages the CIOs at local 
government across the country. It is our privilege to meet with 
you today and to offer testimony on this important issue.
    Public Technology is a not-for-profit organization with a 
mission of, as rapidly as possible, delivering the benefits of 
technology to local government. Public Technology, during 30 
years of concentrated focus on technology for local government, 
has earned the reputation as the premier knowledge company 
regarding technology matters in the local government space for 
citizen counties. Public Technology is also the technology arm 
for the National League of Cities, the National Association of 
Counties, and the International Cities/Counties Management 
Association.
    Some of the attributes that make PTI rather unique are it 
not only makes recommendations to local government, but it also 
installs solutions in the local government space. We work 
closely on a daily basis with the leading edge local 
governments, from the largest--the New Yorks, Philadelphia, 
Dallases, the San Franciscos, the Fairfax VAs, and Montgomery 
Counties--to the small--the Urbandale, IAs; the Rockville, MDs. 
It also is active in international technology issues. We think 
that these factors provide us with a unique overview for best 
practice approaches to technology.
    PTI considers proper management of technology as a serious 
and significant opportunity for realizing enterprise benefits. 
The benefits include enhanced service delivery, adequate return 
on investment and assets, timely implementation, cost reduction 
through the elimination of duplication of effort and 
aggregations, and others.
    Having adequate infrastructure we have found as well as an 
appropriate governance structure to be essential for the 
benefits I've just mentioned. In fact, we have conducted two 
national surveys--one in April 2000, one in January 2001, that 
show the importance of infrastructure. That's listed in 
attachment one, tab one of our packet.
    Mr. Chairman and members of the subcommittee, we base our 
testimony on the 30 years of focused involvement with the local 
government and the expertise on multiple environments--Federal, 
the private sector, local, regional, State, and 
intergovernmental. That synopsis is in attachment two.
    Public Technology, again, is intensely involved with local 
governments of all sizes, with varying information technology 
management models. Our experience has rendered several 
important findings.
    One, collaboration among stakeholders is an essential tool, 
but is often overworked and confused as a substitute for 
structure and accountability.
    Two, political will is necessary to make any governance 
model function properly.
    Consolidation of functions designated as enterprise reduce 
cost.
    Fourth, consolidation of budgets for enterprise functions 
improves return on investment and return on asset.
    Fifth, IT models where the CIO has a seat at the CEO or 
board room table accomplish enterprise goals faster.
    Six, the IT function does well when it is commingled or 
placed under the budgeting function.
    A think tank, the CXO Advisory Group, has listed several 
articles referencing the Federal CIO, and I point the committee 
to that in attachment three. I'd also like to point that the 
Web, I think, and the year 2000 examples at the Federal level 
would be deemed as Federal CIO mandates or actions and I think 
are noteworthy for the benefits that were achieved.
    In tab four you have there the model of what might be 
described as the Department of State's IT model. I think that 
it is very, very interesting in how it is set up, and also it 
does meet the Clinger-Cohen Act, but I think that that model, 
that you see the separation between the technical readiness 
evaluation that the CIO would perform aside from the business 
return on investment that the budgeting function is quite 
telling.
    I would be happy to answer your questions. Again, we thank 
you for being here.
    Mr. Davis of Virginia. Thank you very much.
    [The prepared statement of Mr. Evans follows:]
    [GRAPHIC] [TIFF OMITTED] T5152.079
    
    [GRAPHIC] [TIFF OMITTED] T5152.080
    
    [GRAPHIC] [TIFF OMITTED] T5152.081
    
    [GRAPHIC] [TIFF OMITTED] T5152.082
    
    [GRAPHIC] [TIFF OMITTED] T5152.083
    
    [GRAPHIC] [TIFF OMITTED] T5152.084
    
    [GRAPHIC] [TIFF OMITTED] T5152.085
    
    [GRAPHIC] [TIFF OMITTED] T5152.086
    
    [GRAPHIC] [TIFF OMITTED] T5152.087
    
    [GRAPHIC] [TIFF OMITTED] T5152.088
    
    [GRAPHIC] [TIFF OMITTED] T5152.089
    
    [GRAPHIC] [TIFF OMITTED] T5152.090
    
    [GRAPHIC] [TIFF OMITTED] T5152.091
    
    [GRAPHIC] [TIFF OMITTED] T5152.092
    
    [GRAPHIC] [TIFF OMITTED] T5152.093
    
    [GRAPHIC] [TIFF OMITTED] T5152.094
    
    [GRAPHIC] [TIFF OMITTED] T5152.095
    
    Mr. Davis of Virginia. We are going to proceed to 
questions. Let me start. We'll do 5 minutes a round to start, 
and alternate back and forth.
    Mr. McClure, let me just ask you--you opened up--how would 
you assess OMB's role and performance in providing Federal IT 
leadership and oversight?
    Mr. McClure. Mr. Chairman, since the passage of Clinger-
Cohen I think OMB has taken an aggressive role in trying to 
provide better policy and guidance to the Federal agencies. 
There is a litany of guidance that has come out of OMB in the 
last 5 years.
    In that regard, they are performing a critical role that 
was envisioned for them under that important Clinger-Cohen Act.
    I think in the Office of Management and Budget in the 
separation between budget and management, concentration on 
financial management and information management, sometimes, as 
Don just referred to, gets so commingled that there is 
inadequate attention being focused on some of the highest-
priority IT issues. That's where I think we see a Federal CIO 
being able to provide constancy, constant attention and purpose 
and direction to some of these issues that require it, as was 
illustrated by the Y2K example.
    Mr. Davis of Virginia. Let me ask each of you State folks--
Ms. Valicenti, Mr. Upson, Mr. Gerhards--how are you held 
accountable at your position? It seems to me you are coming in, 
you are a new position, there's always going to be resistance 
in terms of other agencies, in terms of what you are doing. How 
much clout are you given, and how are you held accountable?
    Ms. Valicenti. In my case, in the State of Kentucky 
actually I have a tremendous amount of clout, which is driven 
through several policy and budgetary issues. From a policy 
perspective, I head the Committee on Standards and 
Architecture, which is extremely important, because I would 
suggest to you that is as important, if not important than 
budgetary oversight. Initial planning of systems that would 
eventually speak to each other, exchange data, is paramount to 
what we do in the future.
    Budgetary oversight for prioritization of projects, 
especially ones that would have an enterprise impact, is also 
something that I do across the Commonwealth. I think that is--
both of those responsibilities are necessary to really deliver 
on the enterprise vision.
    There was one other issue I think that was brought up that 
I would suggest to you is probably as important as any others, 
and that is the oversight of the information technology 
discipline, as well. That is extremely critical today. We still 
have a shortage of information technology people. We will never 
be able to turn that over to a total public/private 
partnership, although that is the direction. That's also a very 
important part of my office.
    Mr. Davis of Virginia. Mr. Upson.
    Mr. Upson. Mr. Chairman, I was asked the other day at a 
conference: what are our performance metrics, how are we 
measured, which gets to the heart of your question. And the 
fact that there is a position now that reports to the Governor 
that's responsible for technology, we don't have to set our own 
metrics. We are measured by everybody. There are more 
measurements out there--one of them, U.S. Commerce Secretary 
Don Evans, does it down here at the end. There are more people 
measuring what we do. And I guarantee you, we are very proud of 
consistently coming up now in the top five or so, but if we 
fall below that, every week at the cabinet meeting I'll hear 
about it.
    And I was very proud that we got an A-in technology 
management, one of only a few States, which going to school my 
parents were delighted when I brought that home. And the 
Governor said, ``Why didn't we get an A?'' So the 
accountability is there in terms of measurements.
    Mr. Davis of Virginia. Let me just say I was in law school 
with the Governor. When he gives you any trouble about an A, 
I'll share some stories with you. [Laughter.]
    Mr. Upson. I'll take that back next Monday.
    So I think the accountability is built in because people 
are watching what all of us do, and we are exploring issues, 
bringing together different levels of government, putting 
together systems that communicate, cutting costs.
    I am also accountable to the budget process, to two 
different committees. Congresswoman Davis served on the Science 
and Technology Committee, which actually is the authorizing 
committee for my office. So I'm not only accountable to the 
legislature, to the Governor, but to the legislature on a 
regular basis. And I think that's important to have as part of 
the statute when right now who is responsible for technology 
management. If you had a hearing, I'm not sure who you would 
call. Why don't we know what the top data bases are in 
government? Why don't we know how they are secured? Why don't 
we know whether we should buy or lease computers? Why don't we 
know even what we have? And I'm not sure you could call anyone 
right now. So I think creating the office puts in place the 
accountability that I think you are looking for.
    Mr. Davis of Virginia. Thank you.
    Mr. Gerhards. I have to obviously agree with Don. Governor 
Ridge is very much results oriented, and he routinely reads all 
of the national surveys that are done ranking States, and our 
grades have continually improved, and I am sure if that didn't 
happen that I am ultimately accountable then to either making 
the improvement or stepping aside.
    I'm lucky that the Governor has given me a lot of 
empowerment to make change, in two ways. One is the empowerment 
of just change, itself, and that is, if I need him or his 
senior staff to move mountains, all I need to do is to ask. 
And, second, I work very, very closely with our budget office.
    What I have found in my experience is the funding, the 
budget, is the best lever both for incenting agencies and 
staffs to do what you need done, or using as a disincentive--
that is, removing the funding, either in part or all--as a way 
of getting their attention.
    So I feel at the State level that we are empowered. I think 
we are accountable. Again, many, many folks are doing 
independent evaluations of our performance, not to mention that 
internally we have many legislative committees and other types 
of committees that routinely take each of our major initiatives 
and then critique those.
    Mr. Davis of Virginia. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. McClure, you've spent countless hours working on this 
issue within your office, as well as with me, Mr. Davis, and 
others, and I think that most of us up here are convinced that 
we need a Federal CIO for a variety of reasons, but I'd like to 
ask you if you could basically share with us your perceptions 
of what the major impediments are to us accomplishing that 
goal. What hurdles do we have to overcome? What problem areas 
do we have to resolve in order to achieve this objective that 
we have all, at least on this committee, have worked on it and 
have concluded that it is a good idea? Where do you see our 
problem areas, things we have to overcome in order to get this 
done?
    Mr. McClure. I think really the issue is being real clear 
about what you want this individual to do, and that goes back 
to the comment that I think you've heard consistently from the 
panel. Until the roles and the responsibility and authority of 
this office are clearly understood by the community, I think 
there will be differences of opinion about the value that it 
can bring.
    The CIOs themselves in the Federal Government are not 
welcoming additional oversight and micro-management from a 
Federal CIO. What they would welcome is a champion for the 
types of technology projects that they believe could be 
implemented to achieve more efficient and productive results, 
perhaps across agency lines.
    So I think establishing the accountability, the role, the 
responsibility of this position is paramount to overcome any 
reluctance or obstruction to it.
    In addition, I think that the position has got to be held 
accountable for results. If you create this position and then 
are not explicit about what it is the individual is going to 
produce and be held accountable for, then again it will be a 
hollow position.
    Listen to what Don Upson just said. He is held accountable. 
He has performance metrics that he responds to and demonstrates 
that he is adding value to the State government. You would 
expect the Federal CIOs to do this, but on cross-cutting 
projects, on common infrastructure investments that maybe the 
Federal Government wants to invest in across agency lines. I 
think those are the kinds of things that you would want to make 
sure that this individual is reporting on--progress and 
charting progress, so that it is, again, not just a position 
that is talking and not producing.
    Mr. Turner. So the two areas of concern you shared is that 
there are concerns coming from the agencies about the role of 
the Federal CIO, and they want that clearly defined and 
understood, and you also believe that there needs to be 
accountability for the Federal CIO, which obviously will give 
them credibility over time.
    In terms of the opposition of some of the agencies, what 
types of concerns do you hear and how do you weigh the 
legitimacy of those concerns?
    Obviously, there's always a tendency to protect one's own 
turf, and I'm trying to sort out here what type of issues do we 
really have to come down to in order to deal with the agencies? 
And I include in that the concerns that will come from OMB that 
has some responsibilities in this area currently.
    As you know, in the bills that I produced and Mr. Davis 
produced last year, I was somewhat deferring to OMB at the 
time. I think Mr. Davis' bill was more comprehensive, and 
perhaps centralized some of those roles to a stronger degree 
than I was doing in my bill. I'm interested--and our 
sensitivities may now reverse, since the change in 
administration, but we both had a similar objective in mind. We 
were trying to reach a desired goal and to do it in a way that 
was politically achievable.
    So what do you see as the legitimate concerns flowing from 
OMB and/or the other agencies?
    Mr. McClure. I'll try to respond. I remember at the end of 
the hearing last year I was asked which of your two bills that 
I favored, and I hope you don't ask me that again. That was a 
very difficult question in front of both of you to say I 
preferred one bill over the other.
    Let me see if I can answer the agency concerns. I think it 
does boil down to, even for the Federal CIOs, to understand 
what this Federal CIO will do different or similar to their 
responsibilities. Again, the issue is one of fear of micro-
management, fear of enforcement of policy and guidance without 
understanding the practicality of the pressure to deliver 
results. Will this person be a partner or an overseer? I think 
those are generally concerns that you get.
    However, as I mentioned, I think many of the Federal CIOs 
welcome a champion for some of the issues that they are 
struggling with across agency lines, and I think they also are 
very encouraged by having a champion that can be a priority 
setter for the Federal Government because of the many long list 
of IT priorities that the Federal Government has.
    From an OMB perspective, I think the central issue is one 
of separating budget control for IT from management and 
direction, and there's a firm belief within the Office of 
Management and Budget that if you separate the budget lever and 
budget oversight from these management issues, including IT, 
that it is very difficult to exercise oversight in the Federal 
environment.
    This goes back to just a question of an implementation 
model. Certainly, OMB can continue to provide, as it did in 
both of your proposals, a budget oversight role, but that can 
be done in concert with a person that does not necessarily 
reside within that office. There's a partnership that would 
have to be established and a clear understanding of roles.
    But, again, the problem is that there's a lot of focus on 
structure and defining the organizational box as to where this 
person is going to sit, and less of a dialog about what it is 
we want this individual and the Office of the Federal CIO to 
achieve. What is the problem that we are trying to solve? I 
think it is articulated many times over what some of the issues 
are that we'd like this individual to focus on, but I think the 
more that can be addressed and discussed the better these 
issues would be resolved.
    Mr. Turner. Thank you.
    Mr. Chairman, I think my time is up. I think Ms. Valicenti 
has a comment she might like to add.
    Mr. Davis of Virginia. Go ahead.
    Ms. Valicenti. I'd like to offer some perspective from a 
State level. I would think that many of the concerns are very 
similar to what a State concern is, and I can talk to you 
first-hand of that experience. There is a concern that you will 
add another level of oversight; that decisions will take a much 
longer time to make than before; that people are going to 
``micro manage''; that you're going to stop whatever progress a 
project has and you will put another layer in there. But I will 
tell you that much of that may not be well thought out 
sometimes; that really the point is that the champion point is 
a very, very important point--the ability to champion projects 
that have the enterprise view, projects that need to take first 
priority, help with individual projects.
    Many agencies come to us now and say, ``Look, I've got a 
project that needs your input and oversight,'' and if you have 
some review of that it is much easier to get it through the 
budget process. I would suggest to you that the same is 
applicable for the Federal Government.
    Mr. Turner. Thank you.
    Mr. Davis of Virginia. Thank you.
    Mr. Upson. Mr. Chairman, could I have one other comment on 
that?
    Mr. Davis of Virginia. Sure.
    Mr. Upson. Just on the biggest impediment, I really think 
it is something different. I think it is the fact that the 
secretaries, the OMB Director, the President, and maybe many of 
your colleagues don't think it is important. I think sometimes 
they view the CIO as the person that fixes computers and faxes, 
and do we need another person advising us at that level, 
really? And sometimes I think what's in a name. I like the 
position ``technology and management.'' I think it is a little 
more understood.
    But I think if the President and the Secretaries, the 
people that you want--even the Clinger-Cohen Act was envisioned 
that those Assistant Secretaries report to the cabinet officer. 
I'm not sure there is a department in government where that 
occurs today.
    So I think the biggest impediment is buy-in at the senior 
executive level that you're trying to reach. I mean, I think 
the Federal CIOs would welcome it. I just think that's the 
wrong audience for this bill. I think they get empowered by 
this bill, but right now I think they are not empowered, which 
is the point of it, and I think it is getting to the executives 
to understand exactly what is involved with this $94 billion.
    Mr. Davis of Virginia. Thank you.
    Did you have something to add, as well, Mr. Molchany?
    Mr. Molchany. I think one thing to add to that is the whole 
sense of empowerment. In talking to CIOs at the agency level in 
the Federal Government, they don't feel empowered, even in 
their own agencies, many times.
    Mr. Davis of Virginia. Yes.
    Mr. Molchany. And I think that a person that is empowered 
to make technology happen, to be a champion, to be an 
innovator, who can also empower those CIOs in their individual 
agencies to make a difference and have some clout is something 
that's needed.
    One of the roles that I take on at the county government is 
literally to work with the project sponsors and agencies and 
make their own directors understand how important their 
projects are and why they should be supporting them and why 
they should be a part of them and why we need to put resources 
to this, why we need to actually put budget funds to their 
projects.
    That sense of empowerment really is not there for the CIOs 
you put in agencies. In talking to many of them, they don't 
even have the types of powers that I have at a local 
government. They really don't have a say in how the business 
runs. As a deputy county executive at Fairfax County, I not 
only am able to empower the people in the departments who use 
technology to make a difference technology-wide, but I also am 
empowered to be part of running the business, and I think 
that's something that's really missing for the agency CIOs.
    Mr. Davis of Virginia. Thank you very much.
    The gentlelady from Virginia, Ms. Davis.
    Mrs. Davis of Virginia. Thank you, Mr. Chairman, and thanks 
to each one of you for coming here to testify before us today.
    This question is for Mr. Evans. Do you believe that the 
creation of a position of Federal CIO would help or hinder 
local government IT in any way?
    Mr. Evans. For local government, to help?
    Mrs. Davis of Virginia. Right.
    Mr. Evans. I think it will certainly be of a tremendous 
help, and I might add I think that, whatever the cost is for 
setting up the Federal CIO, it would be quickly regained in 
terms of the returns of investment that the Federal, as well as 
State and local government, would benefit. So cost should not 
be an issue. The benefits would be tremendous in terms of a 
much sooner three-tiered or seamless government being 
implemented, and I think an economy of scale that we would just 
love to have.
    I would just like to add that local government--Fairfax 
County, Montgomery County, just two examples--are larger than 
many State governments, and so I think that there is a 
tremendous wealth of how has the problem been solved at the 
local level.
    Mr. Molchany. Can I just add one point?
    Mrs. Davis of Virginia. Sure.
    Mr. Molchany. I'd just add one point. I think we would 
certainly welcome a Federal CIO. In just looking at the model 
in Virginia, where I have a Secretary of Technology to work 
with, I have been able to have Fairfax County cooperate a lot 
better with the projects going on at the State level, and 
actually in some cases eliminate duplication, where if 
something is much better done by the State government or 
actually much better handled by us as a part of one of their 
programs, it has been very helpful to have a Secretary to work 
with. I would welcome having a CIO at the national level to 
also do the same with.
    Mrs. Davis of Virginia. And this would be--I guess anybody 
can jump into it. How have you handled the security problems?
    Mr. Evans. I'd like to start. After looking at many of the 
governments across the country, I think the security issue--it 
depends on what kind of security you're talking about. If 
you're talking about telecommunications, network protocol, 
that's one issue. If you're talking about the kinds of 
securities that would reside at national secrets--NSA, CIA--I 
think that those kinds of functions I would say are not part of 
the Federal CIO. Those would be specialized kinds of systems, 
as one might view, say, air traffic control, as an operational 
system that is not in the mainstream of computing general 
office automation, horizontal systems, so we would take that 
out by setting up centers of competency--for an example, the 
Washington Metropolitan Councils of Government--I think Fairfax 
is for project management, Montgomery County was for strategic 
planning.
    So you could vest, for an example, a department or agency 
to take over the lead for security, whether it be networking or 
some other function.
    Mrs. Davis of Virginia. Anybody else want to jump in on 
that?
    Ms. Valicenti. Congresswoman Davis, I think security is one 
of those issues that needs attention at all levels, because our 
security is really dependent upon the weakest link. We are all 
interrelated. I think that we would need to distinguish what 
level of security we want for what applications and what 
systems.
    But the general kind of security right now that we all 
enjoy and intend to enjoy is in many cases driven by policies 
at a local level, sometimes at a State level, and then at a 
Federal level. That is a conversation that all of us need to 
have together, because that is probably a set of very basic 
principles that applies to all of us in order to do that.
    That right now is facilitated by certain conversations and 
conferences, etc., but probably would be better driven if we 
had a conversation at the appropriate level among all 
government.
    I will tell you citizens do not distinguish what is 
government. They don't distinguish sometimes what is local, 
State, or Federal. They talk about it as ``government.'' And, 
consequently, we need to look at our citizens in that same way.
    Mrs. Davis of Virginia. Thank you.
    Mr. Molchany. Congresswoman?
    Mrs. Davis of Virginia. Yes?
    Mr. Molchany. Security issues, I think, also just to add to 
that are hard enough to figure out when you have a group like 
we have, which you are familiar with, our COTS Council. David 
sits on it. We talk about it on a monthly basis, driving toward 
a level of collaboration and coordination that is critical if 
you are going to ever secure and protect privacy and secure 
data bases.
    Without collaboration, the ability to collaborate and 
coordinate, it is going to be a giant mess forever, and without 
a functional office that can bring together the people for 
collaboration and coordination, you can just forget about it.
    So I think it is a critical component, and once you've 
established this office the Congress suddenly has someone they 
can--again, to go back to Chairman Davis--be accountable.
    Mrs. Davis of Virginia. Right.
    Mr. Molchany. So it is that collaboration and coordination 
that comes into play with your question with this office. It's 
hard enough when you have it, but impossible without it.
    Mrs. Davis of Virginia. So having the centralized figure 
would help in the security----
    Mr. Molchany. You bring people together. That's right.
    Mrs. Davis of Virginia. Yes, sir.
    Mr. Molchany. A perfect example of security and something 
that probably should be centralized and worked across all 
levels of governments is when you get into the area of digital 
signatures, and basically in Virginia we've already decided 
that each locality should not be handling that on their own. We 
should go at least to the State and work with the State agency 
that would handle that type of security for us.
    When you look across the country--and exactly what Aldona 
said--people don't look at us as separate governments, they 
look at us as--they look at themselves as customers to us, and 
they have to have multiple ways to work with us through 
security. It is going to be very confusing. So something that 
actually gave some leadership in that area would be quite 
helpful.
    Mrs. Davis of Virginia. Thank you, Mr. Chairman.
    Mr. Davis of Virginia. Thank you.
    Mr. Horn.
    Mr. Horn. Thank you, Mr. Chairman.
    I've been very impressed by the statements that you all 
have made, and I just have a few questions here.
    My questions go at the matter of the role of the President 
and his staff or line. I think, if we are going to pass out the 
chief financial officer we've already done, chief information 
officer we've already done, inspector generals, we already done 
20 or more years ago, and we have to give the President, I 
think, the authority as to which person should report to him or 
her, as the case may be.
    And right now we've got to see a focus in what they call 
``Office of Management and Budget.'' The fact is, it has never 
been working on management. The budget is overwhelming. That's 
why. And most of the people, the Presidents, regardless of 
party, look for somebody that has financial background, 
accounting background, not management usually. They don't know 
the first thing about management. And yet Congress has put four 
statutory agencies by law into the Office of Management and 
Budget on all sorts of regulation, clearance, and this kind of 
thing, all of which are necessary if the President is going to 
have control of the executive branch of the Government.
    Let's take an example--and one of you mentioned it. On the 
Y2K thing, that was going nowhere. Every person should have 
been--and the President didn't know what was going on that, and 
no President did anything. So in April 1996, when we held the 
first hearing on that, after that we wrote, with the ranking 
democrat on my subcommittee, and said, ``Mr. President, you've 
got to get somebody to run this show.'' It took him 2 years 
before he faced up to it.
    In the meantime, Mr. Koskinen was Deputy Director of OMB 
for management. Nothing was done on Y2K. He retired. The 
President--and this was a very good move--the President took 
Koskinen out of retirement, said, ``I'll make you assistant to 
the President, as well as any other functions,'' and that's 
exactly what you have to have. And it is--the President needs 
that authority.
    I don't think Congress should push things in the situation 
unless the President agrees, as some Presidents have different 
styles and they need to know how to function on it.
    And so Koskinen worked very well. He was assistant to the 
President and he was chairman of the council, and so forth, so 
he could pull all these people together. He could go around and 
talk to the agency heads, the deputy Secretaries and all the 
rest, so that was a plus because there was a direct line to the 
President and everybody had to listen to him, as a result. And, 
besides, he was a friend of the President, knew him before he 
was the President, and so that certainly helped, and he did a 
fine job.
    But on this situation I think any position within the 
Executive Office of the President, the President should have 
the authority to move that with which function is the most 
comfortable in terms of technology, let's say. If the President 
doesn't care to think any about it, he's not going to want to 
have them beating on the door. On the other hand, that function 
has to be done, and it is a very valid function.
    Some of the things, when we put the financial officers on 
the books, what did they do in some of the agencies? They 
simply gave it over to the Assistant Secretary for Management, 
which had been put together in the Hoover Commission of 1948, 
1949, and 1954, and that just was going nowhere, very frankly, 
when they also threw the chief financial officer and the chief 
information. Congress wanted those people to report directly to 
the cabinet head, and we didn't seem to write the law carefully 
enough, and the result was we didn't get much done years on 
decent financial management or on decent technical and 
computing.
    So I just think we need to look at that, and I would like 
to know, for those of you that have worked through more than 
one Governor, I'd like to hear what your experience was.
    And Governor Ridge, of course, was No. 1 in the Nation, and 
I praised him in every press conference I had that he was way 
ahead of everybody else. Governor Wilson started it with Mr. 
Flynn, in terms of the chief of technology for the State of 
California and a member of the cabinet, and it worked very 
well.
    So I'd just be interested in where you think that position 
ought to be within the Office of Management and Budget, because 
some of us think that we ought to have an Office of Budget and 
an Office of Management, with those two people reporting, but 
we can't have everybody reporting to the President. So do they 
report to the President through the budget side, or do they 
report to the President through the management side? So I'd 
appreciate anything you want to say on the subject.
    Let's just go right down the line. Mr. McClure.
    Mr. McClure. Mr. Horn, I think it goes right to the heart 
of the question. I think there is interest in focusing on 
producing better IT results in the Federal Government. The 
question is: how do we ensure that is going to happen?
    We do have a statutory office in OMB called OIRA that's 
empowered with the responsibility to oversee information 
management and policy and even oversight of agency IT budgets 
in the Federal Government. You know as well as I do some of the 
inherent problems. That office is greatly under-staffed in 
comparison to the workload that it is asked to do. The majority 
of the occupants focus most of their time on the regulatory 
aspect of the office, looking at paperwork reduction reviews, 
cost/benefit studies in relation to the proposed rules, and 
less of the staff are actually focused on IT issues.
    I don't think there's any disagreement that there needs to 
be a higher degree of executive attention within OMB or outside 
OMB on IT, because of tremendous IT problems that we have in 
the Federal Government that need to be addressed, but also the 
tremendous opportunities that we're passing by, by not taking 
this enterprise-wide look at information technology.
    It could work lots of ways. I think the States are prime 
examples of where you have some reporting to Governors, some 
reporting to boards, some doing some combinations. There's no 
secret method of success. But what is needed is some attention 
to this issue, and it is analogous to the creation of CIOs in 
the private sector, some of whom would argue they are dinosaurs 
and who have already been subsumed back into the business side 
of the organization, and that may very well be the case for the 
Federal Government. But right now we need attention and focus 
and executive-level focus on what these opportunities are that 
we're missing and some priorities established for them. What 
are the key problem areas that we need to address to make sure 
that we are producing better results? Within our outside of 
OMB, I think that's what we want to focus on.
    Ms. Valicenti. Let me offer some comments in terms of where 
I think the emphasis ought to be placed. I'm probably not well 
schooled in terms of the organization of the Federal 
Government, but having worked in the private sector it is very 
clear that the position has a lot of emphasis on the management 
side.
    The budget side has always had emphasis because you always 
have had to live within a certain budget within certain means. 
It's the management side that has gotten attention over the 
last few years, and I would suggest to you that it is the 
management side that is getting attention in State government, 
also.
    It is very clear that some of the issues that Don Upson 
just articulated--getting acceptance by other management folks 
is very important, that you are part of the decisionmaking 
process, that you sit at the table, that what you have to say 
and the input that you have becomes part of the overall 
strategy. For far too long, technology has been viewed as the 
afterthought. ``By the way, here's where we're going to go and 
here's how technology, at the very end, is going to help us.'' 
Unfortunately, that is not the case. The technology perspective 
has to be integrated from the very beginning of when the 
strategy is done, so, consequently, I would weigh in on the 
management side.
    Mr. Horn. I might add that I have done that as a university 
president for 18 years, where they sat at the table after my 
first 2 months and everybody knew that was the person that was 
going to work with all of them in terms of the technology 
portions, and it worked for 18 years, and I didn't realize that 
I was putting a CIO in my--I didn't call him a CIO, but I got a 
business manager out of his way, a vice president out of his 
way, and he was part of my management group every Monday 
afternoon, and that ran the university, basically, so I've done 
it and it worked well.
    Mr. Upson.
    Mr. Upson. I would just only add, Congressman, that I think 
that all those--the four offices that exist in the Department 
of Management all were designed to elevate, as you said--I 
agree with it--technology and management to a higher level, and 
I think that a clear direction in establishing an executive in 
statute is important for this reason: absent that, there is no 
predictability. Y2K was an example of bringing people together, 
but now it is gone, and issues like security and others are out 
there. And the biggest question I got early on when the 
Governor created my office, first by Executive order and before 
statute, was, as we started progressing--and I think David 
Molchany will agree with this--what happens after you leave? 
That was answered by the General Assembly when they put it in 
statute. And, absent that predictability, the level of 
cooperation and coordination and executive attention goes down, 
and I think that's the reason that Secretaries pay attention is 
they think the White House is looking, in my mind, and the 
reason that people pay attention to me is they think the 
Governor listens to me, as he does. So I think that it is 
important to have that continuity.
    Mr. Gerhards. From my perspective, I probably spend 90 
percent of my time on cultural and program areas, probably 10 
percent on technology issues and budget issues; therefore, I 
really think the emphasis needs to be on management. But, 
regardless of where you position a CIO, I think the important 
part of it is the empowerment, having the senior-level 
empowerment. Without that, again, I don't think that you are 
going to have or achieve the results that you're looking for.
    You also need the high-level access, that when there are 
issues, when there are cross-cutting difficult cultural issues 
to deal with, that you have ready access to the senior 
executives who can, again, move those mountains.
    And just the last piece of that are adequate resources. 
Certainly, having empowerment and having high-level access are 
all needed and important, but unless this office or any CIO's 
office has sufficient resources to carry out that mission, I 
think there's going to be a lot of lost opportunities.
    Mr. Horn. Mr. Molchany, do you want to comment on that?
    Mr. Molchany. I think that the reason that our position has 
been successful and I have been successful at Fairfax is 
because I have the support of the Board of Supervisors and the 
county executive and the other deputies. The realization that 
they all feel IT is important, that they basically look to me 
to make the IT decisions, to plan it, to make sure it gets 
funded, etc., empowers me and it empowers whoever works with 
me.
    I think I would agree that the management side is what I do 
most, making sure that we collaborate, making sure that people 
work together, making sure that projects are on track and our 
money is being spent wisely.
    The one other key part that makes us successful is a very 
good tie between myself and the CFO so that, as I am planning 
IT, I am working with them to make sure it is within budget 
guidelines and make sure that we have the money and make sure 
that we are actually getting some return for what we are 
investing. Looking at IT as the financial investment as well as 
a management opportunity is really what makes a difference.
    Mr. Horn. Mr. Evans, any more to say on whether it ought to 
be the management or the budget side?
    Mr. Evans. I would just simply say the management side, but 
I would also like to say I think where the middle ground 
between H.R. 4670 and 5024, if you could look at them as being 
the ends of the compendium, is that, for those projects that 
would be deemed enterprising, that those would be the ones 
elevated up to the CIO, the Federal CIO for his oversight and 
his budget control.
    Likewise, you heard my colleagues mention about the 
predictability or the unpredictableness of IT that Y2K was 
present. Now it is not. Today it is security.
    If you were to consider an authority or a mechanism similar 
to, say, the Joint Chiefs of Staff, the ability to task 
organize would be a mechanism that I think would have the 
flexibility for the Federal CIO having the resources that we 
know are needed but don't know exactly what but can be very, 
very responsive because it has the authority at that moment in 
time, as Mr. Koskinen had.
    Mr. Horn. Thank you, Mr. Chairman.
    Mr. Davis of Virginia. I want to thank you very much for 
that line of questions.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Ms. Valicenti, I wanted to ask you to comment on a subject 
that we had the pleasure of discussing with you in Mr. Davis' 
office a few weeks ago with Governor Gehring of Wyoming and 
Governor Barnes of Georgia, and that's the issue of what can 
the Federal Government do to assist the States, and primarily 
to prevent the Federal Government from hindering your efforts 
at the State level to implement information technology through 
the regulations that we may promulgate, and in our meeting a 
few weeks ago you shared one very concrete example of a change 
that you would suggest the Federal Government make to help you 
at the State level, and I wanted to give you the opportunity to 
share that with the committee, as well as to share with us any 
other thoughts that you may have on ways that we at the Federal 
level can do a better job to assist you and, of course, to 
prevent the policies that we promulgate from hindering your 
efforts.
    Ms. Valicenti. Congressman Turner, thanks for the 
opportunity. I think that there are several areas, and let me 
point to them.
    Many of the initiatives that are now being addressed and 
have been addressed by the Federal Government, in fact, do come 
to the States for implementation. It has everything from the 
Workforce Investment Act to the regulations that are now 
being--that are coming on around HIPA, etc., are going to be up 
to the States to implement. In many of those cases, there 
probably was not enough dialog in some of those cases on how 
the States will implement.
    And, by the way, I would suggest to you that this is 
another area where a Federal CIO would have the foresight and 
would have the ability then to work across government lines to 
do that.
    I think the very specific topic that we addressed when we 
spoke with you a few weeks ago was really to remove some of the 
barriers around very specific funding--funding that is toward 
specific projects. And I would suggest to you that we will 
probably provide additional testimony for you over the next few 
months when we have an opportunity to do that of more examples. 
But I would tell you in some cases funding is so specific that 
it is for a program area.
    If you look at the States and how the States want to 
deliver services, they tend to deliver those services from a 
very holistic way. We look at processes and we say, ``What is 
the--a family in need may need multiple things, may need some 
transition funding, may need child care, may need educational 
opportunities. Today, many of that funding comes for a specific 
project. So when we set up an office to do a holistic view, to 
do a process view, we are, in fact, stymied by that funding 
that goes to a specific program, and in those cases we have to 
come and ask for dispensation--that, by the way, we would like 
to set up one office that can serve a family for multiple needs 
for multiple programs.
    And if you look at the citizen as a customer, more and more 
of the services at the local and the State level are probably 
going to be delivered from that very holistic view. It is in 
those areas, Congressman Turner, that I think that you could 
help us.
    Mr. Turner. Thank you.
    Thank you, Mr. Chairman.
    Mr. Davis of Virginia. Thank you very much.
    Kind of a question for everybody, but I'd like to ask--let 
me start with you, Ms. Valicenti--do you think there is 
currently an effective working relationship between the State 
and the Federal IT communities? And if you have any examples of 
that, I'd like to hear them.
    Ms. Valicenti. Congressman Davis, I think that we have a 
relationship right now which is based more on individual 
departments and agencies. I think that we, by the way, have had 
a very good relationship of interacting with the CIO Council, 
and we've done that on a regular basis, and we want to share 
participation on that council. But it is at a very specific 
point. It is not continuous. And when I talk about delivering 
services from a government perspective, I think that is our 
opportunity to do that from a very initial planned perspective.
    I suggested to you a couple of areas. The Workforce 
Investment Act was one area. I guess that HIPA is probably 
another example where ultimately the States will require 
implementation. To have that conversation early on with a focal 
point is probably most important. So we can certainly improve 
on what we're doing.
    Mr. Davis of Virginia. I mean, it seems to me that when 
you're talking about State and local governments you want to 
interact with your clientele, which are the customers or the 
voters, the citizens, but at the Federal level our biggest 
clients are really State and local government, to a great 
extent.
    Ms. Valicenti. That is correct.
    Mr. Davis of Virginia. It's not the average guy out there 
who is going to hook up to a kiosk, although that is not 
unimportant, but it is not the major concern.
    Mr. Upson, do you have any comments? I'll go down the row.
    Mr. Upson. Yes, Mr. Chairman. And I think the Federal CIO 
Council is making attempts to work with State and local 
government. The truth is, though, when State and local 
government--when David Molchany turns around from a meeting 
with the Federal people, he goes back and talks to the chairman 
of the Board of Supervisors. I turn around and I talk to the 
Governor of Virginia. She talks to the Governor of Kentucky. 
Who do the Federal CIOs go talk to?
    So when we cut a deal, we know we can deliver, but when we 
talk about reforming HIPA or A87 or consolidating these, the 
ridiculous process that my colleague here just described where 
all the moneys have to be separated 20 different ways and ends 
up costing more for all of us is--there isn't the ability to 
change it. So we've got that authority, and I think that's why 
I think all of us endorse your concept, because it's great, 
they are well intended, but I'm not sure they can execute to 
the extent we can.
    Mr. Gerhards. Our interaction primarily at the Federal CIO 
level is agency by agency. And I think, as Aldona said, many of 
the programs that are coming out now we would rather deal with 
them in a holistic way, which means that we need to deal with 
multiple CIOs at the Federal level in order to try to either 
seek exemptions or seek their approval for some of their 
initiatives, and that becomes very, very problematic.
    And I also want to just take a second and echo what was 
said about inflexibility and funding. There are a number of 
opportunities, I believe, we would have in Pennsylvania, but we 
can't take advantage of those opportunities because, when we 
bring the State agencies to the table, they say, ``We can't 
participate because Federal law or Federal regulation precludes 
our participation.''
    Some of that is perceived, but many times it is real, and I 
think we are missing a significant opportunity again to deal 
with problems in a very strategic, holistic way instead of the 
very tactical way that we are looking at problems at this 
point.
    Mr. Davis of Virginia. Thank you.
    Mr. Molchany. I would say our experience has been mixed. 
Probably our biggest example is the GSA and working with the 
Government without boundaries project. That has been 
outstanding. The people that we work with there are very 
creative. We have been able to work with them, as well as the 
Commonwealth of Virginia, as well as our own people to come up 
with a concept, and hopefully a demonstration in the late 
spring timeframe, very quickly.
    The same agency, however, decided they were going to put 
kiosks out over the United States. They put one in what they 
thought was Falls Church, VA. It actually was Fairfax County, 
VA. They didn't realize the ZIP codes didn't mean you were in 
one place or the other. All of the information was for Falls 
Church. My chairman of the board was going to go and cut the 
ribbon, because they did figure out it was her that needed to 
do that. I had to go and look at that kiosk and tell them at 
the 11th hour, ``Change this. Change this. Change this.'' They 
buried all the Fairfax information on that kiosk. You can 
actually pay taxes on that kiosk, but you could never find out 
how to do it because they never worked with us. So in one 
agency two separate programs--one that has been an outstanding, 
outstanding collaboration, and one, no matter how many times I 
called from here to Texas to anywhere could I get anyone to 
realize that the kiosk, A, didn't have to exist, because I 
could put one of mine there and actually collaborate with them 
to make it a better implementation; or that they needed to 
actually call me back because the kiosk was actually in my 
county not in the city of Falls Church.
    I've also spoken at the Information----
    Mr. Davis of Virginia. I just have to tell you, as a 
resident of Falls Church and chairman of this subcommittee 
which oversees GSA, I don't know why I wasn't invited to the 
ribbon-cutting. [Laughter.]
    But that's an issue for a different day. I thank you for 
alerting us, though, to that.
    Mr. Molchany. That is an example of excellence and not so 
excellent in one agency.
    I've also spoken at the Information Resource Management 
College at Ft. McNair several times on the role of a CIO, what 
does a CIO do, for potential CIOs. I have been struck at how 
similar the actual things that people do in IT and IT 
management in the Federal Government is to local government and 
State government. I think there needs to be a lot more synergy 
there, and I think a focal point at the Federal level could 
certainly bring some synergy.
    The other thing is the CIOs are looking for some direction. 
They are looking for someone to empower them. Many of them have 
said the same thing and different programs have been involved 
with them.
    And then I would echo Aldona. We need our simplification of 
how Federal moneys and programs end up at the local level. 
There is no holistic approach. There are strange things, such 
as system of record, which means something that is foreign to 
anyone that is in IT. You know, if data is in a data base, it 
doesn't matter how it got there as long as it is right. Those 
types of things are so complex that it is very hard to actually 
interact with programs, especially at the local level where you 
have a person that may need multiple pieces of the same program 
all done at once. So I would echo Aldona that that is 
absolutely a critical issue.
    Mr. Davis of Virginia. All right. Thank you.
    Mr. Evans, do you want to comment on it?
    Mr. Evans. I think it has been said. Thank you.
    Mr. Davis of Virginia. All right. I'm not interested in 
ribbon cuttings in Montgomery County, but Mrs. Morella might 
be. [Laughter.]
    Ms. Valicenti. Congressman Davis, I want to just leave you 
with a very graphic last example, and I failed to mention that 
earlier, but I have been told stories--and I did not personally 
see this--but, in fact, we had an office where there were two 
programs funded separately, two people sitting side-by-side 
with their own individual personal computers but not being able 
to share a printer because that printer had to be supported out 
of two separate programs. So two computers sitting side by side 
with two individual printers because that printer could not be 
shared.
    And I will tell you that is one small story, but I think 
that is probably replicated hundreds of times.
    Mr. Davis of Virginia. And, as Mr. Turner and I have also 
heard about stories like that, we're trying to work with your 
group and others to try to ensure that kind of thing doesn't 
have to happen. It is hugely inefficient, but it just talks to 
the changes that take place when you move from one model and 
one society into the information society. We just have to 
change the laws accordingly.
    Just one last question from my perspective, and I'll start 
with Mr. Upson, because I know what Don went through.
    Don, when you went down to Richmond it was new for the 
State, obviously. I think one of Governor Gilmore's greatest 
accomplishments has been in the area of information technology. 
He has been very, very proactive in those areas. What kind of 
resistance did you meet from other State agencies? You're a new 
kid on the block at this point. No agency likes to give up 
authority and power over procurement and those kind of issues 
that obviously your position raised. And I will ask everybody 
else to take it, because I think the key is, if you can have 
somebody, whatever you call him, what's their clout going to be 
and what's the resistance going to be from the old line sectors 
that have been in power for a long time?
    Mr. Upson. That gets to the heart of construction of a 
statute. In fact, I think that it is important to create the 
office, an office that has the authority, but I think that same 
statute has to bring together the stakeholders, and the biggest 
obstacle I have--it was on August 26, 1998, when we first met 
and we had a 4-hour meeting scheduled, and the Governor was 
going to come 2 hours into it, and we were supposed to discuss 
things until he got there, and you could just see around the 
room everybody--nobody wanting to talk like, you know, what are 
we going to be told what to do.
    And I think the important point is to construct a statute 
somehow that lets the agencies know that this person is going 
to be your agent, not your dictator, and is going to be 
representing the collective views and provides a focus to go to 
the Congress, to go to the executive, rather than be someone 
directing.
    And our whole statute was created from the point of view 
that the Internet drives power choice and control to the 
individual, and if you believe that you have got to believe 
that central authorities can't tell people what to do very 
effectively unless you bring them into the game.
    I think the private sector management, in technology 
companies especially, is different. It is diffused. It isn't 
top-down. I use the analogy it is more a soccer game than a 
football game, where, instead of the coach tells the 
quarterback tells the team every single play, they're all out 
on the field all at once and they're all cooperating.
    And so I think that--but it was that initial belief that 
government somehow, the central authority, new Governor for a 
short period of time is going to try to tell us what to do, and 
that's what I think. If we've changed anything, I think we've 
changed that.
    Mr. Davis of Virginia. Anyone else want to comment? Mr. 
Gerhards.
    Mr. Gerhards. I think in Pennsylvania in 1995, when we went 
to a CIO, our agencies were looking for some leadership. They 
also were looking for a champion, because they had gone through 
some tough budgetary times and they were looking for one voice 
that could work with our budget office and champion the cause 
that technology can provide a good return on investment, 
properly implemented.
    We also tried to keep it in a collaborative mode. We try to 
do everything in a collaborative mode that we can and only get 
dictatorial when we need to. We try to also keep our focus at 
the enterprise level and not micro-manage, provide a lot of 
flexibility to the agencies, and we do that through setting 
standards and general policies.
    I think it is also important early on, at least, to have 
some small wins--to look for the low-hanging fruit. Nothing--
success breeds success, and a good way of building the team and 
having everyone feel that they are an important part of the 
team is collectively identifying some of those opportunities 
and having success.
    And I think what really drove it home in Pennsylvania was 
the Y2K effort. Some folks were challenging the wisdom of 
having an enterprise approach to Y2K, and I can tell you, after 
we were finished with Y2K, two of the agencies--I had them come 
to us and say, ``We would not have been successful, we could 
not have achieved this, if each of us had to go out and procure 
our own vendors to help us do this, if each of us had to find 
the best techniques to remediate the technology.''
    So I think all of those components together--and what I'm 
seeing in Pennsylvania now is more interest in collaboration, 
because they see it can work, and less interest in trying to 
maintain the traditional stovepipes that we had before 1995.
    Mr. Davis of Virginia. Thank you very much.
    Any other comments on that?
    Mr. Molchany. I have one. I think that you have actually 
gone beyond creating a CIO with that question to what type of 
person would you need. You really need to have a person that 
actually wants to collaborate, that realizes that they can't be 
a dictator, that realizes they have to have people work with 
them, and especially in a Federal model, where you may not have 
direct control over budgets and departments, you have to make 
people want to work with you. You have to make them realize 
that you have value to them, that you are an added value, 
because if you aren't you'll be ignored. So you literally have 
to be able to tie those departments together and make a 
difference and really be a person that people want to work with 
and really think there is some value.
    Ms. Valicenti. Mr. Chairman, I'd like to offer----
    Mr. Davis of Virginia. Go ahead, and then we'll go to Mr. 
Evans.
    Ms. Valicenti. Two thoughts.
    Mr. Davis of Virginia. Sure.
    Ms. Valicenti. First of all, information technology has 
been an enabler to everything that State government, in our 
case, does, but everything that government does, and so if you 
can get that message across to, in my case, my peers, my 
cabinet-level officers, that we're there to help them.
    Second, to distinguish what needs to be done at an 
enterprise level and what not needs to be done at an enterprise 
level, but that there is some control at the agency or at the 
department over the things that have no enterprise perspective. 
I think if you can make that--distinguish that early on in the 
program, that is it much easier then to work.
    Mr. Davis of Virginia. Thank you very much.
    Yes, Mr. Evans?
    Mr. Evans. Yes. I would just simply agree. To be very 
candid, as we are currently installing enterprise information 
technology models in some of the largest jurisdictions 
currently, we see opposition that may be mirrors from wait and 
see to outright sabotage, and what we find is that, as was 
indicated, when the CIO does deliver, agencies, departments 
realize that there is real benefit. I think the recommendations 
that my colleagues make in terms of identifying the roles and 
responsibilities will help clarify that, and also the guiding 
principles that are associated with the collaboration that 
David here mentions, as well. I think all of those things will 
eliminate them. But they are no different than any other 
project, the kinds of people issues that you have.
    This is a 10 percent technology problem and 90 percent 
people problem.
    Mr. Davis of Virginia. Thank you. Any of my colleagues want 
to ask any other questions?
    [No response.]
    Mr. Davis of Virginia. If not, let me just say before we 
close I want to thank everyone for attending the hearing this 
morning. I want to thank our distinguished panel of witnesses 
and our Members for participating. I also want to thank the 
staff for organizing this.
    I think we've learned a lot, and I look forward to 
continuing our work on these issues with my colleagues on the 
subcommittee.
    I will now enter into the record the briefing memo 
distributed to the subcommittee members.
    We will hold the record open for 2 weeks from this date for 
those who may want to forward submissions for possible 
inclusion.
    These proceedings are closed.
    [Whereupon, at 11:45 a.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] T5152.096

[GRAPHIC] [TIFF OMITTED] T5152.097

[GRAPHIC] [TIFF OMITTED] T5152.098

[GRAPHIC] [TIFF OMITTED] T5152.099

                                   - 
</pre></body></html>
